TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Improvements Are Needed to Ensure That
                   Performance Measures Are Balanced and
                     Adequately Assess the Effectiveness
                          of the Collection Program



                                          March 28, 2013

                              Reference Number: 2013-30-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                            fund penalty determinations faster in Fiscal Year
ENSURE THAT PERFORMANCE                               2011 compared to Fiscal Year 2009.
MEASURES ARE BALANCED AND                             TIGTA also identified three ways that the
ADEQUATELY ASSESS THE                                 Collection program could enhance how it
EFFECTIVENESS OF THE COLLECTION                       monitors, measures, and reports its
PROGRAM                                               accomplishments. First, integrate the IRS’s
                                                      balanced measures to include customer and
                                                      employee satisfaction and business results into
Highlights                                            all performance reports. This would help hold
                                                      managers and staff across Collection program
Final Report issued on March 28, 2013                 areas accountable for and focused on balancing
                                                      service to taxpayers with enforcing the tax laws
Highlights of Reference Number: 2013-30-028           as articulated in the IRS mission and its two
to the Internal Revenue Service Commissioner          strategic goals and one strategic foundation.
for the Small Business/Self-Employed Division.        Second, link the Collection program’s
IMPACT ON TAXPAYERS                                   68 performance measures used at the
                                                      operational level to a specific operational
Having measures that provide ongoing                  objective and to one or more of the IRS’s
performance information to management and             strategic goals. Such links can show Collection
stakeholders is critical to sound decisionmaking      program managers how their day-to-day
in any organization. In the IRS, such information     activities contribute to attaining the Collection
assists IRS management and Congress in                program’s operational objectives and the
making decisions about how to fund and allocate       broader IRS strategic goals.
resources to collect the estimated $360 billion of
taxes from taxpayers who owe but have not             Third, develop and implement meaningful
paid. This, in turn, helps reduce the risk of         performance targets for each operational-level
creating unfair burden on the vast majority of        measure. If objectively established, the targets
taxpayers who pay their taxes in full and on          would help Collection program managers avoid
time.                                                 any perception of bias or manipulation in the
                                                      monitoring and reporting of progress in meeting
WHY TIGTA DID THE AUDIT                               their preestablished objectives.
TIGTA initiated this audit at the request of the      WHAT TIGTA RECOMMENDED
IRS Oversight Board. The objectives were to
determine whether the IRS established                 TIGTA recommended that the IRS ensure that
adequate performance measures for its                 customer satisfaction and employee satisfaction
Collection program and implemented an                 measures are included in all performance
adequate management information system to             reports. The IRS should also establish a
compile those measures reliably and timely.           performance measure and target for each
                                                      operational objective.
WHAT TIGTA FOUND
                                                      In its response to the report, the IRS agreed with
TIGTA found that the Collection program’s             TIGTA’s recommendations. The IRS plans to
performance measures were captured                    include customer satisfaction and employee
accurately and noted several favorable trends         satisfaction in all performance reports. In
among the measures reported in its operational        addition, the IRS plans to assess the need for
performance reports. For example, the total           new measures or changes to existing measures
dollars collected in Fiscal Year 2011 were            to ensure proper alignment with operational
20 percent higher than the amount collected in        goals.
Fiscal Year 2009 even though there were fewer
revenue officers on staff. Revenue officers also
completed investigations quicker and made trust
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    March 28, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Improvements Are Needed to Ensure That
                                 Performance Measures Are Balanced and Adequately Assess the
                                 Effectiveness of the Collection Program (Audit # 201130016)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has 1) established adequate performance measures for its Collection program and
 2) implemented an adequate management information system to compile those measures reliably
 and timely. This audit was conducted at the request of the Internal Revenue Service Oversight
 Board.1 The audit is included in our Fiscal Year 2013 Annual Audit Plan and addresses the
 major management challenge of Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix XI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Augusta R. Cook,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).




 1
     See Appendix X for a glossary of terms used in the report.
                              Improvements Are Needed to Ensure That Performance
                                 Measures Are Balanced and Adequately Assess
                                   the Effectiveness of the Collection Program




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Collection Program Has Established Measures
          at the Strategic, Operational, and Individual Levels ..................................... Page 5
          Performance Measures Are Balanced at All Levels,
          but Operational-Level Reports Lack Consistency ........................................ Page 7
                    Recommendation 1:........................................................ Page 10

          Collection Program Performance Measures Could Be
          Enhanced ....................................................................................................... Page 10
                    Recommendation 2:........................................................ Page 14


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Director Collection Report Measures .................................. Page 19
          Appendix V – Director Collection Report Measures Included
          on the Enterprise Collection Report .............................................................. Page 21
          Appendix VI – Strategic Goal to Improve Service to Make
          Voluntary Compliance Easier Linked to Performance Measures ................. Page 24
          Appendix VII – Strategic Goal to Enforce the Law to Ensure
          That Everyone Meets Their Obligation to Pay Taxes Linked
          to Performance Measures .............................................................................. Page 26
          Appendix VIII – Strategic Foundation to Invest for High
          Performance Linked to Performance Measures ............................................ Page 28
                  Improvements Are Needed to Ensure That Performance
                     Measures Are Balanced and Adequately Assess
                       the Effectiveness of the Collection Program



Appendix IX – Performance Measures Not Linked to an
Operational Objective ................................................................................... Page 29
Appendix X – Glossary of Terms ................................................................. Page 30
Appendix XI – Management’s Response to the Draft Report ...................... Page 32
        Improvements Are Needed to Ensure That Performance
           Measures Are Balanced and Adequately Assess
             the Effectiveness of the Collection Program




                   Abbreviations

CFf          Collection Field Function
DCR          Director Collection Report
ECR          Enterprise Collection Report
FY           Fiscal Year
IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
                        Improvements Are Needed to Ensure That Performance
                           Measures Are Balanced and Adequately Assess
                             the Effectiveness of the Collection Program




                                            Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 required the IRS to
change its performance measures to balance customer service with overall tax administration
responsibilities. As a result, Treasury Regulation Part 801, Balanced System for Measuring
Organizational and Employee Performance Within the
Internal Revenue Service,2 was implemented to execute the         A balanced measurement
IRS Balanced Measurement System. The objectives of the              system should include
IRS Balanced Measurement System are to:                             customer satisfaction,
                                                                              employee satisfaction,
       Translate the IRS’s mission and strategic goals into a                and business results.
        tool to communicate organizational priorities, guide
        and motivate performance, and obtain feedback.
       Establish employee satisfaction and customer satisfaction as organizational objectives
        equal in importance to business results.
       Support managers in taking actions to foster employee and customer satisfaction.
       Provide a clearer picture to customers of how the IRS values improving customer and
        employee satisfaction.
The IRS Balanced Measurement System was developed as part of the effort to modernize the
IRS and to reflect its priorities as articulated in the IRS’s mission. Figure 1 illustrates the
elements of the IRS Balanced Measurement System.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). See Appendix X for a
glossary of terms.
2
  Treas. Reg. § 801 (2005).
                                                                                                         Page 1
                        Improvements Are Needed to Ensure That Performance
                           Measures Are Balanced and Adequately Assess
                             the Effectiveness of the Collection Program



             Figure 1: Elements of the IRS Balanced Measurement System




                                  Customer                     Employee
                                 Satisfaction                 Satisfaction




                                                  Business
                                                  Results




          Source: Publication 3561, Organizational Performance Management and the IRS Balanced
          Measurement System, dated December 1999.

The IRS defines the goals of its balanced measures elements as follows:
       Customer Satisfaction – measures how well the IRS provides accurate and professional
        services to internal and external customers in a courteous, timely manner.
       Employee Satisfaction – measures how well the IRS creates an enabling work
        environment for employees by providing quality leadership, adequate training, and
        effective support services.
       Business Results – measures how much work the IRS produces in a quality manner and
        provides meaningful outreach to all customers.
The Office of Management and Budget3 and the Government Performance and Results Act of
19934 recommend that performance measures:
       Consistently report on the same programs.
       Regularly report performance data.
       Include targets or goals.


3
  Office of Management and Budget, Circular No. A-11, Preparation, Submission, and Execution of the Budget
(Aug. 2012).
4
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                       Page 2
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



      Hold employees and managers accountable.
      Provide information to make business decisions.
We performed this review of the IRS Collection program’s performance measures at the request
of the IRS Oversight Board. The review was performed at the Small Business/Self-Employed
(SB/SE) Division Office of the Enterprise Collection Strategy in Washington, D.C., during the
period October 2011 through October 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                      Improvements Are Needed to Ensure That Performance
                         Measures Are Balanced and Adequately Assess
                           the Effectiveness of the Collection Program




                                 Results of Review

Performance measurement involves the ongoing monitoring and reporting of program
effectiveness and the progress made towards achieving established goals and objectives. In
the Collection program, managers have developed and established a suite of 68 performance
measures to measure the effectiveness of their compliance activities. We noted several favorable
trends among the measures reported in their operational performance reports. For example,
program managers can use the performance measures to compare the dollars collected from
taxpayer delinquent accounts closed in the field with the number of revenue officers used to
work the accounts. The average dollars collected per revenue officer was 14 percent higher in
Fiscal Year (FY) 2011 than in FY 2009. They can also compare the dollars collected from other
activities, such as installment agreements. The dollars collected through installment agreements
in FY 2011 were 32 percent higher than the amount collected in FY 2009. Overall, the total
dollars collected in FY 2011 were 20 percent higher than the amount collected in FY 2009 even
though there were fewer revenue officers on staff.
In addition to establishing performance measures to monitor and report on program
effectiveness, Collection program managers have established 11 efficiency-oriented measures.
These measures include the 1) average lapsed time between starting a delinquency investigation
and completing it, 2) percent of offers in compromise completed within nine months, and
3) timeliness of trust fund penalty determinations. During FY 2011, revenue officers completed
their delinquency investigations within an average of 13.8 weeks. This was nearly one week less
than the average number of weeks spent on an investigation in FY 2009. Revenue officers also
made trust fund determinations faster in FY 2011. However, they closed offer in compromise
cases slower in FY 2011 compared to FY 2009.
We reconciled the Collection program’s performance measures to various Collection Activity
Reports and determined that all information was accurately captured from source reports.
However, while performance measures were balanced at all levels, customer and employee
satisfaction were not integrated in the highest level operational report. In addition, the Collection
program’s performance measures were not linked to a specific operational objective or to one or
more of the IRS’s strategic goals. Finally, we found that management had not developed and
implemented meaningful performance targets for each of the operational-level measures.




                                                                                              Page 4
                      Improvements Are Needed to Ensure That Performance
                         Measures Are Balanced and Adequately Assess
                           the Effectiveness of the Collection Program



The Collection Program Has Established Measures at the Strategic,
Operational, and Individual Levels
The IRS has translated its mission into two strategic goals and one strategic foundation: improve
service to make voluntary compliance easier, enforce the law to ensure that everyone meets their
obligation to pay taxes, and invest for high performance. The IRS Balanced Measurement
System was created to help focus the Collection program on achieving these strategic goals.
Figure 2 shows that this measurement system requires the IRS to measure performance at three
levels.
                       Figure 2: Measuring Performance at the IRS




Source: Publication 3561, Organizational Performance Management and the IRS Balanced Measurement System,
dated December 1999.

      At the strategic level, measures should assess overall performance in delivering the IRS’s
       mission. In addition, measures should assess performance in achieving the IRS’s
       strategic goals. Strategic measures should apply to the organization as a whole and to
       each of the major operating and functional divisions in the modernized IRS.
      At the operational level, measures should assess the effectiveness of specific programs,
       such as the Collection Field function (CFf).




                                                                                                 Page 5
                        Improvements Are Needed to Ensure That Performance
                           Measures Are Balanced and Adequately Assess
                             the Effectiveness of the Collection Program



       At the individual level, measures should assess employee performance by using critical
        elements and critical performance expectations that support and align with the IRS’s
        mission and balanced measures approach.
The Collection program has established performance measures at the strategic, operational, and
individual levels. Figure 3 shows the reports the Collection program uses to measure
performance at each of these three levels.
  Figure 3: Measuring Performance at Different Levels in the Collection Program




Source: Our analysis of the levels of IRS Performance Measurement reports.

At the individual level, the Collection program assesses performance through individual
performance plans. Managers evaluate individual performance on three to five performance
aspects for critical job elements. The rating for each critical job element is based upon review
and consideration of all performance aspects.
At the operational level, the Collection program distributes the monthly Director Collection
Report (DCR) and the Enterprise Collection Report (ECR). The DCR is used by the Director of
Collection to assess the CFf’s performance. The DCR focuses primarily on program results and
is used to make business decisions. The ECR is a higher level report intended for Collection
program executives. Accordingly, it consolidates several of the measures from the DCR and
other reports. Specifically, the ECR includes measures for the SB/SE and Wage and Investment
Divisions’ Collection programs (CFf, Automated Collection System, and Compliance Services
Collection Operations).



                                                                                            Page 6
                           Improvements Are Needed to Ensure That Performance
                              Measures Are Balanced and Adequately Assess
                                the Effectiveness of the Collection Program



At the strategic level, the IRS’s SB/SE Division issues a quarterly Business Performance Review
to measure performance. The data included in this report focus on business results and capture
performance measure data from various lower level reports (e.g., the DCR and ECR).
The Collection program can only rely on performance measures if the data provided on each
report are accurate. We reconciled all of the performance measures on the FY 2011 DCRs and
ECRs to their respective source reports and determined that all of the performance measures
reflected were captured accurately. We did not attempt to evaluate the accuracy of the narrative
feedback in employee appraisals because the related case file documentation was not readily
available at the time of our review.

Performance Measures Are Balanced at All Levels, but
Operational-Level Reports Lack Consistency
The IRS Balanced Measurement System was created to ensure that the components of customer
satisfaction, employee satisfaction, and business results are each given due consideration.
Accordingly, the Internal Revenue Manual5 requires the IRS to consider each of the three
components when setting organizational objectives, establishing goals, assessing progress and
results, and evaluating individual performance. Each component represents an important aspect
of the Collection program’s goals and each is of equal importance in carrying out the Collection
program’s mission. The Collection program’s mission is to collect delinquent taxes and secure
delinquent tax returns through the fair and equitable application of the tax laws, including the use
of enforcement tools when appropriate, and provide education to customers to enable future
compliance, thereby protecting and promoting public confidence in the American tax system.
Figure 4 shows the relationship between the individual, operational, and strategic levels.
Specifically, an employee’s individual performance plan should be linked to operational
performance measures, and operational performance measures should be linked to the strategic,
enterprisewide performance measures.




5
    Internal Revenue Manual 1.5.1.2 (Nov. 1, 2011).
                                                                                             Page 7
                      Improvements Are Needed to Ensure That Performance
                         Measures Are Balanced and Adequately Assess
                           the Effectiveness of the Collection Program



                       Figure 4: The Relationship of Performance
                      Measurement Levels in the Collection Program




       Source: Our analysis of the levels of IRS performance measurement reports.

Individual Level
Collection program employees’ performance plans align with the Collection program’s balanced
measures. Specifically, employees are evaluated based on five critical job elements.
      One element relates to employee satisfaction, which includes workplace interaction,
       workgroup involvement, and workplace environment.
      Two elements relate to customer satisfaction, which include knowledge and application
       of IRS policies, taxes, collection, etc.
      Two elements relate to business results, which include quality and efficiency.
In addition to the critical job elements, managers are required to record whether each employee
provided fair and equitable treatment to taxpayers. Specifically, managers assess whether each
employee administered the tax laws fairly and equitably, protected taxpayer rights, and treated
taxpayers ethically with honesty, integrity, and respect during the rating period. This standard is
mandatory for all employees, and a narrative is required if the rating is not met.
Managers are also evaluated using five performance expectations: leadership, employee
satisfaction, customer satisfaction, business results, and equal employment opportunity.
Managers and their supervisors are required to develop a limited number of commitments based
on these expectations.




                                                                                             Page 8
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



Operational Level
As shown in Appendix IV, the DCR includes measurements for business results, customer
satisfaction, and employee satisfaction. The majority of the measures for business results
quantify business productivity, such as total inventory and case closures. These data are
captured from various lower level reports. Additionally, the DCR includes a measure for quality,
which is calculated by evaluating the scores of certain attributes from the National Quality
Review System. Customer satisfaction and employee satisfaction are measured through survey
questions; specifically, the annual IRS Employee Satisfaction Survey and the quarterly IRS
Customer Satisfaction Survey, respectively. The data taken from these two surveys are specific
to results pertaining to CFf employees and taxpayers working with CFf employees, respectively.
Because the components of employee satisfaction and customer satisfaction do not change
rapidly and require more time to collect the data, the results reported on the DCR are updated
annually instead of monthly.
In contrast to the DCR, the ECR consolidates several of the operational-level measures from the
DCR’s for CFf, Automated Collection System, and Campus Compliance. However, because it is
a higher level report intended for Collection program executives, the ECR does not include the
complete set of measures reported on those DCRs. Instead, the performance measures captured
on the ECR contain mostly high-level business results measures, including measures for
inventory and case closures. Customer satisfaction and employee satisfaction are not reported on
the ECR, even though these two measures represent more than 66 percent of the IRS Balanced
Measurement System. Appendix V compares and contrasts the measures reported in the
two reports.
Although the Collection program has established balanced measures at the operational level on
the DCR, they have not integrated the IRS’s balanced measures of customer satisfaction,
employee satisfaction, and business results into the ECR, which is the higher level Collection
report. Refining the ECR to include employee and customer satisfaction measures would help
hold Collection program managers and staff accountable for and focused on balancing service to
taxpayers with enforcing the tax laws as articulated in the IRS’s mission, strategic goals, and
strategic foundation. This would also give managers a more complete picture of the impact their
process improvement efforts are having on issues affecting employees and taxpayers.
Strategic Level
The Business Performance Review contains balanced measures and supports the IRS’s overall
strategic plan. The Business Performance Review focuses primarily on business results data for
various programs throughout the SB/SE Division, such as SB/SE Division’s Examination and
Collection functions. It also contains measures for customer satisfaction and employee
satisfaction, although these measures are not broken down by business program. Instead,
customer satisfaction and employee satisfaction measures are aggregate and depict the collective
results of the entire SB/SE Division.

                                                                                          Page 9
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



In addition to the Business Performance Review, the IRS publishes other documents that include
information about Collection program performance, such as the IRS’s Management Discussion
and Analysis and the IRS Congressional Justification. However, these reports only include three
measures related to the Collection program.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, SB/SE Division, should
report performance measurement data for customer satisfaction and employee satisfaction on the
ECR to promote consistency and transparency throughout the Collection program.
       Management’s Response: IRS management agreed with this recommendation and
       will include program-level customer satisfaction and employee satisfaction performance
       measurement data in the Enterprise Collection Report.

Collection Program Performance Measures Could Be Enhanced
While Collection program managers are using indicators such as dollars collected and the
timeliness of trust fund penalty determinations to measure the effectiveness and efficiency of
their collection activities, those indicators are not all linked with IRS strategic goals or the
Collection program’s operational objectives. In addition, relatively few indicators include a
measurable performance standard (target) to monitor progress made towards achieving the
intended outcome.

Not all Collection program performance measures can be linked with the IRS’s
strategic goals or strategic foundation
The mission of the IRS is to provide America’s taxpayers top-quality service by helping them
understand and meet their tax responsibilities and enforcing the law with integrity and fairness to
all. To fulfill its mission, the IRS focuses on achieving two strategic goals and a strategic
foundation:
      Strategic Goal 1: Improve Service to Make Voluntary Compliance Easier.
      Strategic Goal 2: Enforce the Law to Ensure Everyone Meets Their Obligation to Pay
       Taxes.
      Strategic Foundation: Invest for High Performance.
Each strategic goal and strategic foundation is supported by operational objectives and annual
performance measures. The operational objectives reflect the IRS’s business priorities, and the
performance measures should evaluate its efforts in meeting its stated objectives.
Appendices VI, VII, and VIII show the FY 2011 Collection program operational objectives for
Strategic Goals 1 and 2 and the strategic foundation, respectively.


                                                                                            Page 10
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



IRS management has not linked CFf operational objectives with performance measures.
Therefore, we attempted to identify a correlation between these objectives and performance
measures. Because there was no direct correlation, we used very broad criteria in our analysis.
For example, we associated the operational objective “use feedback from stakeholders to
improve the collection process” with the performance measure “customer satisfaction,” even
though the performance measure is not specific about what, if any, improvements were made to
the collection process or how taxpayer feedback may have contributed to any improvements.
Our analysis linked 46 of 68 performance measures to a Collection program operational
objective supporting one of the two IRS goals and the strategic foundation reflected in its
strategic plan. Appendix IX shows the 22 performance measures for which we could not
associate any operational objective. For example, we could not associate the performance
measure “taxpayer closures” to any CFf operational objective. Since these measures do not
appear to be associated with an operational objective or an IRS strategic goal or foundation, their
usefulness as a performance measure is unclear. Management should assess the value of these
measures and make changes to the measures or operational objectives as appropriate.
Strategic Goal 1: Improve Service to Make Voluntary Compliance Easier
We were able to link all 11 operational objectives associated with the IRS’s goal to “improve
service to make voluntary compliance easier” with at least one performance measure (see
Appendix VI). However, not all of the objectives can be measured objectively. For example,
one of the objectives is to “listen to taxpayers and work together to resolve their issues,” which
we linked to the performance measure “taxpayer percent satisfied.” However, neither the
objective nor the measure quantifies how listening and working together will be measured.
Strategic Goal 2: Enforce the Law to Ensure Everyone Meets Their Obligation to Pay Taxes
We could not link all CFf operational objectives associated with the IRS’s goal to “enforce the
law to ensure everyone pays their taxes” to a performance measure (see Appendix VII).
Specifically, we were unable to link three of 10 CFf operational objectives to at least one
performance measure. In addition, while the operational objectives are consistent with efforts to
enforce the tax laws, they are not always specific, quantifiable, or measurable. For example, one
objective is to “enhance our international collection efforts,” but the objective lacks specifics
about the level of effort or actions to be taken. Another objective is to “continue…emphasis on
timely and accurate lien filing determinations…” Although we linked this objective to the liens
performance measure on the DCR, it only includes the volume of liens filed, with no information
about timeliness or accuracy.
Strategic Foundation: Invest for High Performance
We could not link all the CFf operational objectives associated with the IRS’s strategic
foundation to “invest for high performance” to a performance measure (see Appendix VIII).
Specifically, we were unable to associate three of seven CFf operational objectives to at least one

                                                                                            Page 11
                           Improvements Are Needed to Ensure That Performance
                              Measures Are Balanced and Adequately Assess
                                the Effectiveness of the Collection Program



performance measure. For example, we were unable to link a performance measure with the
CFf’s operational objective to “seek new and innovative ways to accomplish the Collection
mission.” Similar to the operational objectives associated with the IRS goals, there are also no
quantifiable methods to measure all of these objectives. For example, the objective to “capitalize
on opportunities for knowledge transfer throughout Collection” lacks specifics, and there are no
performance measures associated with this goal.
Because Collection program performance measures are not always linked with the operational
objectives, they are also not linked with the IRS’s strategic goals and strategic foundation. As a
result, Collection program managers and staff do not have complete information on how their
day-to-day activities contribute to attaining the Collection program’s operational objectives and
the broader IRS strategic goals and strategic foundation. In addition, Collection program
managers may be missing opportunities to measure and communicate their efforts and progress
in meeting these goals and objectives.

The Collection program has developed few meaningful targets to assess
performance
The Internal Revenue Manual6 describes how to establish targets or performance goals in a
balanced measurement system. Specifically, an organization should communicate priorities and
guide performance through qualitative and quantitative targets. For example:
          Qualitative targets are general in nature and suggest a desired direction, e.g., improve
           customer satisfaction.
          Quantitative or numeric targets are specific in nature, e.g., improve customer satisfaction
           from 70 percent to 80 percent.
The IRS should compare actual results with qualitative and quantitative (numeric) targets to
report agency progress in delivering tax administration responsibilities. Qualitative targets can
be established at all levels of the organization to support organizational strategies and plans.
Numeric targets for any measure should be established based on a review of prior year results,
historical patterns, anticipated mix of resources available, the link to organizational priorities and
initiatives, and an assessment of existing and emerging trends, issues, and problems.
Targets are essential to performance measures because they:
          Provide direction to Collection program management and employees about where and
           how the IRS desires to improve in an area.
          Allow meaningful evaluation of progress because it is immediately clear whether the
           targets have been met or little progress has been made.


6
    Internal Revenue Manual 1.5.1.9 (Nov. 1, 2011).
                                                                                               Page 12
                          Improvements Are Needed to Ensure That Performance
                             Measures Are Balanced and Adequately Assess
                               the Effectiveness of the Collection Program



          Facilitate accountability for the level of results achieved.
Collection program management establishes targets for performance measures that they consider
critical. However, the majority of performance measures on the DCR do not contain any targets.
Appendix V shows that only nine (13 percent) of the 68 performance measures reflected on the
FY 2011 DCR included a specific target.7 Furthermore, management has made several changes
to the measures that include targets on the DCR. For example, after one target was missed by
more than 15 percent in FY 2008, no target was established for that performance measure for the
next three fiscal years.
Establishing more targets is particularly important to both the IRS and its stakeholders. Without
these targets, the measures do not provide perspective about progress and improvements in the
Collection program. Figure 5 shows selected performance measures that do not have targets and
their respective results for a three-year period.
                           Figure 5: Selected DCR Measures With No Targets
                                   for Fiscal Years 2009 Through 2011

           Measure                                                              FY       FY         FY
                                        Specific Measure
           Category                                                            2009     2010       2011
                             Revenue Officers – Assigned Taxpayer
             Staffing        Delinquent Accounts/Taxpayer                      3,752    4,068      3,733
                             Delinquency Investigations
                             Percent Potential Overage – Taxpayer
                             Delinquent Accounts/Combo Taxpayer                 8.99     7.9        10.9
             Age of          Delinquency Investigation
           Inventory         Potential Overage – Taxpayer
                             Delinquent Account/Combo Taxpayer                 17,991   19,200     23,795
                             Delinquency Investigation
          Efficiency of      Percent Direct Collection Time                     61.2     61.6       66.9
            Staffing         Percent Field Time                                 16.6     17.3       16.2
       Source: Our analysis of the performance measures on the DCR for FYs 2009, 2010, and 2011.

For the three-year period ending in FY 2011, the number of revenue officers assigned cases
fluctuated from 3,752, up to 4,068, and down to 3,733. The lack of targets prevents stakeholders
(e.g., the IRS Oversight Board) from knowing the variance from the number that the IRS
originally intended. In addition, the percent direct collection time increased from 61.2 in



7
    See Appendix V for a complete list of FY 2011 DCR measures with targets.
                                                                                                      Page 13
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



FY 2009 to 66.9 in FY 2011. However, stakeholders do not know whether management
expected the percentage to be even higher in FY 2011.
In addition, when targets were established, evidence that management considered available
resources, organizational priorities, or an assessment of emerging trends, issues, and problems
when adjusting the targets was not always available. Some of the targets appear to have been
based entirely on the prior year’s actual results. For example, the targets for customer
satisfaction were identical to the prior fiscal year’s actual performance in FY 2009, FY 2010, and
FY 2011, even though management expected to see improvement in taxpayer satisfaction scores.
If objectively established, the targets would help Collection program managers avoid any
perception of bias or manipulation in the monitoring and reporting of their progress in meeting
their preestablished objectives. In addition, such information assists IRS management and
Congress in making decisions about how to fund and allocate resources to collect the estimated
$360 billion of taxes from taxpayers who owe but have not paid. This, in turn, helps reduce the
risk of creating unfair burden on the vast majority of taxpayers who pay their taxes in full and on
time.

Recommendation
Recommendation 2: To improve Collection program performance measures, the Director,
Enterprise Collection Strategy, SB/SE Division, should establish a Collection program
performance measure and target for each operational objective.
       Management’s Response: IRS management agreed with this recommendation and
       will improve work plan documentation by including clear evidence of all assumptions
       used to support the development of meaningful operational targets. They will also assess
       the need for new measures or changes to existing measures to ensure proper alignment
       with operational goals.




                                                                                           Page 14
                           Improvements Are Needed to Ensure That Performance
                              Measures Are Balanced and Adequately Assess
                                the Effectiveness of the Collection Program



                                                                                     Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine whether the IRS 1) established adequate
performance measures for its Collection program and 2) implemented an adequate management
information system to compile those measures reliably and timely. To accomplish these
objectives, we:
I.         Ensured that the Collection program’s performance measures were aligned with the IRS’s
           mission.
           A. Determined whether the Collection program’s performance measures from high-level
              performance reports, such as the ECR, encompassed all three components of the
              balanced measures concept and were linked to the IRS’s mission.
           B. Determined whether the DCR performance measures were aligned with the ECR
              performance measures in addition to being linked to strategic goals.
           C. Determined whether the individual performance plans for SB/SE Division CFf1
              executives, managers, and personnel were aligned with the DCR performance
              measures.
II.        Determined whether the IRS established performance measures that measure the success
           of the Collection program’s activities.
           A. Reviewed the FY 2011 ECRs to ensure that the performance measures adequately
              measured the success of the Collection program’s activities by assessing the
              effectiveness of the procedures the IRS established to review and monitor the ECR in
              addition to procedures established to address issues (e.g., negative trends, missed
              targets). We considered whether the ECR is focused on outcome-based data and
              provided information that:
               1. Can be used to make business decisions.
               2. Identified what Collection programs are most effective.
           B. Reviewed the FY 2011 DCRs to ensure that the performance measures measured the
              success of CCf activities.
               1. Assessed the effectiveness of the procedures the IRS established to review and
                  monitor the DCR in addition to procedures established to address issues

1
    See Appendix X for a glossary of terms.
                                                                                            Page 15
                     Improvements Are Needed to Ensure That Performance
                        Measures Are Balanced and Adequately Assess
                          the Effectiveness of the Collection Program



              (e.g., negative trends, missed targets). We considered whether the DCR is
              focused on outcome-based data and provided information that:
              a. Can be used to make business decisions.
              b. Identified what collection programs are most effective.
           2. Identified the DCR performance measures with established targets.
           3. Identified the performance measures with targets on the FY 2011 DCRs and
              identified the incentives for achieving each target and the consequences for not
              meeting each target by interviewing IRS officials. We ensured that any incentives
              or consequences promoted the balanced measures concept.
              a. Assessed the effectiveness of the process used to establish the targets.
              b. Compared the actual results with the targets for each performance measure
                 from FYs 2008 to 2011 and determined how effective the CCf has been at
                 meeting its established goals and improving performance. We assessed any
                 corrective actions taken when targets were not met or negative trends
                 emerged.
III.   Determined whether the IRS implemented an adequate management information system
       to compile their performance measures reliably and timely.
       A. Reviewed the FY 2011 ECRs and reconciled the measure results to the data source.
       B. Assessed the frequency at which the ECR is produced and provided to the IRS for
          review and analysis.
       C. Reviewed the FY 2011 DCRs and reconciled the measure results to the data source.
       D. Assessed the frequency at which the DCR is produced and provided to the IRS for
          review and analysis.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: SB/SE Division Collection program
policies, procedures, and practices for ensuring all performance measure results are accurately
reflected on the monthly DCRs and ECRs and linked with SB/SE Division Collection program
operational objectives. We evaluated these controls by interviewing management and
reconciling FY 2011 DCRs and ECRs to the source reports per their respective data dictionaries
and identifying the correlation between operational objectives and performance measures.

                                                                                            Page 16
                   Improvements Are Needed to Ensure That Performance
                      Measures Are Balanced and Adequately Assess
                        the Effectiveness of the Collection Program



                                                                            Appendix II


                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Timothy Greiner, Acting Director
Beverly Tamanaha, Acting Audit Manager
Richard Viscusi, Lead Auditor
Joel Weaver, Senior Auditor
Rebecca Arendosh, Auditor
Bridgid Shannon, Auditor




                                                                                    Page 17
                    Improvements Are Needed to Ensure That Performance
                       Measures Are Balanced and Adequately Assess
                         the Effectiveness of the Collection Program



                                                                             Appendix III

                          Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Chief Counsel CC
National Taxpayer Advocate
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 18
                          Improvements Are Needed to Ensure That Performance
                             Measures Are Balanced and Adequately Assess
                               the Effectiveness of the Collection Program



                                                                                                     Appendix IV

                   Director Collection Report Measures

The CFf uses the DCR to report measures for customer satisfaction, employee satisfaction, and
business results. As the table shows, the Collection program has steadily increased total dollars
collected and taxpayer closures during the three-year period. However, the age of its inventory
has increased.

 Measure Category                        Specific Measure                       FY 2009     FY 2010      FY 2011
                          Proofs of Claim Filed by Field (All Chapters)         183,580     202,566       233,632
  Advisory, Insolvency,
   and Quality Output     Technical Assistance Provided to Field Collection      77,941      78,554       80,728
    and Productivity
                          Advisory Case Direct Hours per Disposition               2.4        1.4           1.1
                          Taxpayer Delinquent Account Module – Average
                                                                                  27.9        25.2         25.4
                          Weeks
                          Taxpayer Delinquency Investigation Total
      Cycle Time                                                                  14.6        13.7         13.8
                          Investigations – Average Weeks

                          Percent Offers in Compromise Field Closures in
                                                                                  82.9        79.9         72.4
                          0–9 Months

                          Taxpayer Delinquent Account Inventory – Modules       774,045     950,395       978,848
                          Field Taxpayer Delinquent Account and Combo
                                                                                176,030     207,810       196,443
                          Taxpayer Inventory
                          Taxpayer Delinquency Investigation Inventory –
                                                                                191,486     229,946       189,939
                          Modules

       Inventory          Field Taxpayer Delinquency Investigation
                                                                                 30,984      41,215       29,176
                          Stand-Alone Taxpayer Inventory

                          Queue Taxpayer Delinquent Account and Combo
                                                                                1,109,057   949,201      1,117,934
                          Taxpayer Inventory

                          Potential In-Business Pyramiders                       12,362      11,057       11,246

                          Percent Potential In-Business Pyramiders                14.0        10.6         12.2
                          Percent Potential Overage – Taxpayer Delinquent
                                                                                  8.99        7.90         10.90
                          Accounts/Combo Taxpayer Delinquency Investigation

                          Potential Overage – Taxpayer Delinquent
                                                                                 17,991      19,200       23,795
                          Account/Combo Taxpayer Delinquency Investigation

    Age of Inventory      Percent Overage – Taxpayer Delinquent
                                                                                  5.42        4.23         4.96
                          Account/Combo Taxpayer Delinquency Investigation

                          Overage – Taxpayer Delinquent Account/Combo
                                                                                 10,841      10,282       10,833
                          Taxpayer Delinquency Investigation
                          Percent Offers in Compromise Field Cases > 9 Months     8.62       14.70         14.89




                                                                                                           Page 19
                             Improvements Are Needed to Ensure That Performance
                                Measures Are Balanced and Adequately Assess
                                  the Effectiveness of the Collection Program



    Measure Category                         Specific Measure                 FY 2009          FY 2010          FY 2011
       Revenue Officer
                             Number of Revenue Officers With Adjustments         1,640            1,392             759
       Inventory Level
                             Percent Full Pay                                    25.6             25.2             24.0

        Closure Types        Percent Installment Agreement                       20.2             21.0             24.3

                             Percent Currently Not Collectible                   42.1             42.4             40.4
                             Liens                                              473,796          542,045          566,889
                             New Liens                                          470,802          539,030          563,053

                             Refiled Liens                                       2,994            3,015            3,836

                             Levies                                             386,444          667,322          822,757
     Enforcement Activity
                             Seizures                                             581              605              776
                             Percent of Timely Trust Fund Recovery Penalty
                                                                                 59.7             76.5             82.7
                             Determination
                                                                      1
                             Percent of Timely Approved Form 4183                67.9             69.2             76.3

                             Number of Fraud Referrals by Revenue Officers        206              220              205
       Fraud Referrals
                             Fraud Referrals – Number in Development              704              618              763
                             Nonfiler Activity Number Returns Secured           317,518          381,861          438,459

       Nonfiler Activity     Nonfiler Activity Net Dollars Assessed          $2,206,923,000   $2,673,552,000   $3,026,444,000

                             Dollars Collected From Returns Secured           $137,602,000     $173,076,000     $130,993,000

     Employee Satisfaction   Employee Percent Satisfied                          72.2             75.0             76.0

     Taxpayer Satisfaction   Taxpayer Percent Satisfied                          65.0             68.0             70.0

                             National Quality Review System                      80.5             80.6             80.3
                             National Quality Review System Offers in
                                                                                 87.0             90.7             92.5
           Quality           Compromise Quality Score
                             Advisory Liens Quality Score                        76.8             87.4             92.3

                             Insolvency Quality Score                            73.5             85.2             89.3
Source: The Collection Field function DCR for FY 2009 to FY 2011




1
    Form 4183, Recommendation re: Trust Fund Recovery Penalty Assessment.
                                                                                                                   Page 20
                              Improvements Are Needed to Ensure That Performance
                                 Measures Are Balanced and Adequately Assess
                                   the Effectiveness of the Collection Program



                                                                                                        Appendix V

            Director Collection Report Measures
        Included on the Enterprise Collection Report

The ECR is a high-level operational report intended for Collection program executives. The
ECR is a summary of selected work plan data from the DCR for the CFf, the Automated
Collections System, and Campus Compliance. Because the ECR is a summary document and
intended for Collection program executives, some measures from the DCR are not included on
the ECR. The table below shows those FY 2011 DCR measures included on the FY 2011 ECR
as well as which of the DCR measures include targets. In addition to the two satisfaction
measures, the ECR does not include the age of the inventory or potential pyramiding measures.
       DCR Measure                                                                         Targets
         Category                             DCR Specific Measure                        Established   Also on ECR
                                 Full-Time Equivalents                                        X             X
                                 Full-Time Equivalents – Areas
                                 Revenue Officers – Assigned Taxpayer Delinquent
           Staffing
                                 Accounts/Taxpayer Delinquency Investigation
                                 Offers in Compromise Specialists – Head Count
                                 Advisory, Insolvency, and Quality Staffing
                                 Percent Direct Collection Time
     Efficiency of Staffing
                                 Percent Field Time
                                 Dollars Collected From Taxpayer Delinquent Accounts
                                                                                                            X
                                 Assigned to Field
                                 Dollars Collected From Installment Agreements                              X
                                 Dollars Collected From Returns Secured                                     X
       Dollars Collected         Total Dollars Collected
                                 Dollars Collected From Notices With Revenue Officer
                                 Assignment
                                 Dollars Collected From Advisory, Insolvency, and
                                 Quality
                                 Taxpayer Closures                                            X             X
      Taxpayer Closures          Taxpayer Closures per Full-Time Equivalents                  X             X
       and Productivity          Taxpayer Closures per Full-Time Equivalents – Areas
                                 Taxpayer Closures per Direct Staff Year
     Taxpayer Delinquent         Taxpayer Delinquent Accounts – Taxpayer Closures                           X
      Accounts Closures
       and Productivity          Taxpayer Delinquent Accounts Closures – Module                             X
    Taxpayer Delinquency         Taxpayer Delinquency Investigation – Taxpayer Closures                     X
    Investigation Closures
       and Productivity          Taxpayer Delinquency Investigation Closures – Module                       X
                                 Taxpayer Delinquent Accounts and Taxpayer
    Normalized Productivity      Delinquency Investigation Taxpayer Productivity
                                 Normalized



                                                                                                                Page 21
                          Improvements Are Needed to Ensure That Performance
                             Measures Are Balanced and Adequately Assess
                               the Effectiveness of the Collection Program



   DCR Measure                                                                          Targets
     Category                                DCR Specific Measure                      Established   Also on ECR
                             Offers in Compromise Field Closures                           X             X
                             Offers in Compromise Field Closures per Direct Staff
 Offers in Compromise                                                                      X
                             Year
Closures and Productivity
                             Offers in Compromise Field Receipts
                             Offers in Compromise Field Inventory Level                                  X
  Federal Tax Deposit        Federal Tax Deposit Alert Productivity Rate
  Alerts Productivity        Federal Tax Deposit Alert Disposition Rate
  Advisory, Insolvency,      Proofs of Claim Filed by Field (All Chapters)
   and Quality Output        Technical Assistance Provided to Field Collection
    and Productivity         Advisory Case Direct Hours per Disposition
                             Taxpayer Delinquent Accounts Module – Average Weeks
                             Taxpayer Delinquency Investigation Total Investigations
       Cycle Time            – Average Weeks
                             Percent Offers in Compromise Field Closures in
                                                                                           X
                             0–9 Months
                             Taxpayer Delinquent Accounts Inventory – Modules                            X
                             Field Taxpayer Delinquent Accounts and Combo
                                                                                                         X
                             Taxpayer Inventory
                             Taxpayer Delinquency Investigation Inventory – Modules                      X
                             Field Taxpayer Delinquency Investigation Stand-Alone
       Inventory                                                                                         X
                             Taxpayer Inventory
                             Queue Taxpayer Delinquent Accounts and Combo
                             Taxpayer Inventory
                             Potential In-Business Pyramiders
                             Percent Potential In-Business Pyramiders
                             Percent Potential Overage – Taxpayer Delinquent
                             Accounts/Combo Taxpayer Delinquency Investigation
                             Potential Overage – Taxpayer Delinquent
                             Accounts/Combo Taxpayer Delinquency Investigation
    Age of Inventory         Percent Overage – Taxpayer Delinquent Accounts/Combo
                             Taxpayer Delinquency Investigation
                             Overage – Taxpayer Delinquent Accounts/Combo
                             Taxpayer Delinquency Investigation
                             Percent Offers in Compromise Field Cases > 9 Months
    Revenue Officer
                             Number of Revenue Officers With Adjustments
    Inventory Level
                             Percent Full Pay                                                            X
     Closure Types           Percent Installment Agreement                                               X
                             Percent Currently Not Collectible                                           X
                             Liens
                             New Liens
  Enforcement Activity       Refiled Liens
                             Levies
                             Seizures


                                                                                                             Page 22
                           Improvements Are Needed to Ensure That Performance
                              Measures Are Balanced and Adequately Assess
                                the Effectiveness of the Collection Program




     DCR Measure                                                                     Targets
       Category                            DCR Specific Measure                     Established   Also on ECR
                              Percent of Timely Trust Fund Recovery Penalty
                              Determination
                              Percent of Timely Approved Form 4183
                              Number of Fraud Referrals by Revenue Officers
      Fraud Referrals
                              Fraud Referrals – Number in Development
                              Nonfiler Activity Number Returns Secured
     Nonfiler Activity        Nonfiler Activity Net Dollars Assessed
                              Dollars Collected From Returns Secured
   Employee Satisfaction      Employee Percent Satisfied                                X
   Taxpayer Satisfaction      Taxpayer Percent Satisfied                                X
                              National Quality Review System                            X
                              National Quality Review System Offers in Compromise
          Quality             Quality Score
                              Advisory Liens Quality Score
                              Insolvency Quality Score
Source: TIGTA analysis of the Collection Field function FY 2011 DCR and the Collection program
FY 2011 ECR.




                                                                                                        Page 23
                              Improvements Are Needed to Ensure That Performance
                                 Measures Are Balanced and Adequately Assess
                                   the Effectiveness of the Collection Program



                                                                                                        Appendix VI

            Strategic Goal to Improve Service to Make
              Voluntary Compliance Easier Linked to
                      Performance Measures

The CFf established 11 operational objectives for FY 2011 to support the IRS strategic goal to
improve service to make voluntary compliance easier. We analyzed these operational objectives
and the performance measures on the FY 2011 DCR to identify performance measures that were
linked to the operational objectives. Few of the performance measures were linked directly with
an operational objective, so we applied a broad interpretation in order to identify a link. We
were able to link all 11 operational objectives to at least one performance measure.
                                                      Linked to      Director Collection           Director Collection
                                                     Performance           Report                   Report Measure
            Operational Objective                     Indicator       Specific Measure                  Category
  Listen to taxpayers and work together to resolve
                                                         X          Taxpayer Percent Satisfied       Taxpayer Satisfaction
  their issues.

  Communicate clear case expectations and use
                                                         X          Taxpayer Percent Satisfied       Taxpayer Satisfaction
  case closing letters.

                                                                        Percent Installment
                                                                   Agreement; Percent Currently
                                                                    Not Collectible; Offers in
                                                                   Compromise Field Closures;
                                                                      Dollars Collected From        Closure Type; Offers in
                                                                     Installment Agreements;       Compromise Closures and
  Continue to identify and implement procedures                       Dollars Collected From         Productivity; Dollars
  to assist taxpayers who are experiencing               X          Advisory, Insolvency, and         Collected; Staffing;
  economic challenges.                                                   Quality; Offers in            Quality; Advisory,
                                                                    Compromise Specialists –        Insolvency, and Quality
                                                                      Head Count; Advisory,         Output and Productivity
                                                                     Insolvency, and Quality
                                                                   Staffing; Insolvency Quality
                                                                   Score; Proofs of Claim Filed
                                                                      by Field (All Chapters)
                                                                                                   Advisory, Insolvency and
  Support field assistance sites with technical                    Technical Assistance Provided
                                                         X                                           Quality Output and
  backup.                                                               to Field Collection
                                                                                                         Productivity

  Collaborate with campus to enhance field
                                                         X          Employee Percent Satisfied      Employee Satisfaction
  processing procedures.

                                                                   Percent Offers in Compromise
  Reduce “rework” by conducting proper financial
                                                         X               Field Closures in             Age of Inventory
  analysis and monitoring compliance.
                                                                            0–9 Months




                                                                                                                     Page 24
                            Improvements Are Needed to Ensure That Performance
                               Measures Are Balanced and Adequately Assess
                                 the Effectiveness of the Collection Program



                                                       Linked to      Director Collection            Director Collection
                                                      Performance           Report                    Report Measure
          Operational Objective                        Indicator       Specific Measure                   Category
                                                                         Federal Tax Deposit
                                                                    Productivity Rate; Federal Tax
Treat businesses having payroll tax debt and                          Deposit Disposition Rate;
related Trust Fund Recovery Penalty assessments                       Field Taxpayer Delinquent      Federal Tax Deposit Alert
                                                          X
as a single unified and coordinated collection                      Account and Combo Taxpayer        Productivity; Inventory
effort where feasible.                                               Inventory; Queue Taxpayer
                                                                       Delinquent Account and
                                                                     Combo Taxpayer Inventory

Take all case actions in a professional, courteous,
                                                          X          Taxpayer Percent Satisfied        Taxpayer Satisfaction
and respectful manner.

Use feedback from stakeholders to improve the
                                                          X          Taxpayer Percent Satisfied        Taxpayer Satisfaction
collection process.

Promote awareness and increase usage of                                   Percent Installment
electronic products and payment options such as                     Agreement; Taxpayer Percent       Closure Type; Taxpayer
Online Payment Agreement, Direct Debt                     X         Satisfied; Federal Tax Deposit   Satisfaction; Federal Tax
Installment Agreements, and Electronic Federal                      Productivity Rate; Federal Tax   Deposit Alert Productivity
Tax Payment System.                                                    Deposit Disposition Rate
Establish an overall communication strategy to
enhance understanding of the collection process           X          Taxpayer Percent Satisfied        Taxpayer Satisfaction
and resolution options.
 Source: TIGTA analysis of the CFf FY 2011 operational objectives and the CFf FY 2011 DCR.




                                                                                                                        Page 25
                                Improvements Are Needed to Ensure That Performance
                                   Measures Are Balanced and Adequately Assess
                                     the Effectiveness of the Collection Program



                                                                                                             Appendix VII

      Strategic Goal to Enforce the Law to Ensure That
             Everyone Meets Their Obligation to
         Pay Taxes Linked to Performance Measures

The CFf established 10 operational objectives for FY 2011 to support the IRS strategic goal to
enforce the law to ensure that everyone meets their obligation to pay taxes. We analyzed these
operational objectives and the performance measures on the FY 2011 DCR to identify
performance measures that were linked to the operational objectives. Few of the performance
measures were linked directly with an operational objective so we applied a broad interpretation
in order to identify a link. We were able to link seven of the 10 operational objectives to at least
one performance measure.
                                                           Linked to                                         Director Collection
                                                          Performance   Director Collection Report            Report Measure
              Operational Objective                        Indicator        Specific Measure                      Category
                                                                             Federal Tax Deposit Alert
                                                                           Productivity Rate; Federal Tax
                                                                          Deposit Alert Disposition Rate;
                                                                        Field Taxpayer Delinquent Account
                                                                          and Combo Taxpayer Inventory;
                                                                                                                Federal Tax Deposit
                                                                            Queue Taxpayer Delinquent
Prevent pyramiding of employment taxes by taking                                                                Alerts Productivity;
                                                              X            Account and Combo Taxpayer
timely and appropriate case actions.                                                                          Inventory; Enforcement
                                                                          Inventory; Potential In-Business
                                                                                                                      Activity
                                                                         Pyramiders; Percent Potential In-
                                                                          Business Pyramiders; Percent of
                                                                            Timely Trust Fund Revovery
                                                                         Penalty Determination; Percent of
                                                                           Timely Approved Form 4183

                                                                             Federal Tax Deposit Alert
                                                                           Productivity Rate; Federal Tax
                                                                          Deposit Alert Disposition Rate;
                                                                        Field Taxpayer Delinquent Account
                                                                          and Combo Taxpayer Inventory;
                                                                                                                Federal Tax Deposit
Utilize Automated Trust Fund Recovery and Integrated                        Queue Taxpayer Delinquent
                                                                                                                Alerts Productivity;
Collection System applications to investigate, develop,       X            Account and Combo Taxpayer
                                                                                                              Inventory; Enforcement
and timely assess Trust Fund Recovery Penalties.                          Inventory; Potential In-Business
                                                                                                                      Activity
                                                                         Pyramiders; Percent Potential In-
                                                                          Business Pyramiders; Percent of
                                                                            Timely Trust Fund Recovery
                                                                         Penalty Determination; Percent of
                                                                           Timely Approved Form 4183

Pursue case actions such as suits, redemptions, and
                                                              X                  Levies; Seizures              Enforcement Activity
seizures when the facts of the case support it.




                                                                                                                         Page 26
                                  Improvements Are Needed to Ensure That Performance
                                     Measures Are Balanced and Adequately Assess
                                       the Effectiveness of the Collection Program



                                                             Linked to                                           Director Collection
                                                            Performance   Director Collection Report              Report Measure
              Operational Objective                          Indicator        Specific Measure                        Category
                                                                           Number of Fraud Referrals by
Ensure indicators of fraud are properly pursued and
                                                                X         Revenue Officers; Fraud Referrals           Fraud Referrals
developed.
                                                                             – Number in Development

                                                                           Nonfiler Activity Number Returns
                                                                             Secured; Nonfiler Activity Net
                                                                          Dollars Assessed; Dollars Collected
                                                                           From Returns Secured; Taxpayer
                                                                               Delinquency Investigation
                                                                             Taxpayer Closures; Taxpayer
                                                                          Delinquency Investigation Closures
                                                                                                                 Nonfiler Activity; Dollars
                                                                           – Module; Taxpayer Delinquency
                                                                                                                    Collected; Taxpayer
                                                                          Investigation Total Investigations –
                                                                                                                        Delinquency
                                                                               Average Weeks; Taxpayer
                                                                                                                   Investigation Closures
                                                                               Delinquency Investigation
                                                                                                                  and Productivity; Cycle
Execute operational strategies within specific program                        Inventory – Modules; Field
                                                                                                                  Time; Inventory; Fraud
areas such as nonfiler, Offer in Compromise, abusive            X                Taxpayer Delinquency
                                                                                                                     Referrals; Offers in
schemes, decedents and bankruptcy.                                             Investigation Stand-Alone
                                                                                                                   Compromise Closures
                                                                            Taxpayer Inventory; Number of
                                                                                                                      and Productivity;
                                                                              Fraud Referrals by Revenue
                                                                                                                     Staffing; Advisory,
                                                                          Officers; Fraud Referrals –Number
                                                                                                                  Insolvency, and Quality
                                                                               in Development; Offers in
                                                                                                                  Output and Productivity
                                                                            Compromise Field Closures per
                                                                              Direct Staff Year; Offers in
                                                                          Compromise Field Receipts; Offers
                                                                            in Compromise Field Inventory
                                                                             Level; Offers in Compromise
                                                                          Specialists – Head Count; Proofs of
                                                                          Claim Filed by Field (All Chapters)

Strengthen our partnerships with the IRS and SB/SE
Research and conduct studies and validate assumptions to                                   –                                 –
improve our Collection tools, processes and procedures.

Continue our emphasis on timely and accurate lien filing
determinations along with understanding the
circumstances of when not to file, defer, or extend lien                   Liens; New Liens; Refiled Liens;
                                                                                                                  Enforcement Activity;
filing. Also continue to give priority processing to lien       X          National Quality Review Score;
                                                                                                                         Quality
certificate applications and requests, including                            Advisory Liens Quality Score
discharges, subordinations, withdrawals, and non-
attachments.

                                                                             Revenue Officers – Assigned
                                                                            Taxpayer Delinquent Accounts/
                                                                                Taxpayer Delinquency              Staffing; Efficiency of
Maintain our field presence.                                    X
                                                                             Investigations; Percent Direct              Staffing
                                                                            Collection Time; Percent Field
                                                                                         Time

Enhance our international collection efforts.                                              –                                 –

Partner with counsel to timely interpret/implement
                                                                                           –                                 –
changes in the law that impact collection activities.
 Source: TIGTA analysis of the CFf FY 2011 operational objectives and the CFf FY 2011 DCR.




                                                                                                                              Page 27
                              Improvements Are Needed to Ensure That Performance
                                 Measures Are Balanced and Adequately Assess
                                   the Effectiveness of the Collection Program



                                                                                                       Appendix VIII

 Strategic Foundation to Invest for High Performance
           Linked to Performance Measures

The CFf established seven operational objectives for FY 2011 to support the IRS strategic
foundation to invest for high performance. We analyzed these operational objectives and the
performance measures on the FY 2011 DCR to identify performance measures that were linked
to the operational objectives. Few of the performance measures were linked directly with an
operational objective so we applied a broad interpretation in order to identify a link. We were
able to link four of the seven operational objectives to at least one performance measure.
                                                                                                          Director
                                                                Linked to        Director                Collection
                                                               Performance   Collection Report         Report Measure
                  Operational Objective                         Indicator    Specific Measure             Category
  Actively engage employees; listen to their concerns and                      Employee Percent
                                                                   X                                   Employee Satisfaction
  ideas and act on them.                                                          Satisfied

  Capitalize on opportunities for knowledge transfer
                                                                                       –                        –
  throughout the Collection program.

  Refine and clarify embedded quality attributes in order to                   Employee Percent
                                                                   X                                   Employee Satisfaction
  improve performance feedback and case quality.                                  Satisfied

  Enhance our enterprise workload selection process through
                                                                                       –                        –
  case modeling.

  Seek new and innovative ways to accomplish the Collection
                                                                                       –                        –
  program mission.

                                                                               Employee Percent              Employee
                                                                              Satisfied; Number of     Satisfaction; Revenue
  Identify, cultivate, and support our future leaders.             X
                                                                             Revenue Officers With       Officer Inventory
                                                                                  Adjustments                  Level

                                                                                 National Quality
                                                                             Review Score; Offers in
                                                                               Compromise Quality
  Develop and deliver interactive continuing professional
                                                                   X          Score; Advisory Liens           Quality
  education that maintains a highly skilled workforce.
                                                                                  Quality Score;
                                                                                Insolvency Quality
                                                                                      Score
  Source: TIGTA analysis of the CFf FY 2011 operational objectives and the CFf FY 2011 DCR.




                                                                                                                        Page 28
                           Improvements Are Needed to Ensure That Performance
                              Measures Are Balanced and Adequately Assess
                                the Effectiveness of the Collection Program



                                                                                                          Appendix IX

                     Performance Measures Not Linked
                        to an Operational Objective

Even though we applied broad criteria to identify a link between the operational objectives and
performance measures, there were 22 measures in which we could not identify a link to at least
one operational objective. Because these measures are not tied to either a CFf operational goal
or an IRS strategic goal or foundation, their usefulness as a performance measure is unclear.

     Director Collection Report Measure Category                 Director Collection Report Specific Measure

                            Staffing                               Full-Time Equivalents; Full-Time Equivalents – Areas

                                                                   Dollars Collected From Taxpayer Delinquent Accounts
                                                                 Assigned to Field; Dollars Collected From Returns Secured;
                        Dollars Collected
                                                                Total Dollars Collected; Dollars Collected From Notices With
                                                                                Revenue Officer Assignment

                                                                   Taxpayer Closures; Taxpayer Closures per Full-Time
              Taxpayer Closures and Productivity                 Equivalent; Taxpayer Closures per Full-Time Equivalent –
                                                                      Areas; Taxpayer Closures per Direct Staff Year

                                                                 Taxpayer Delinquent Account Taxpayer Closures; Taxpayer
                 TDA Closures and Productivity
                                                                          Delinquent Account Closures – Module

                                                                  Taxpayer Delinquent Account and Taxpayer Delinquency
                    Normalized Productivity
                                                                      Investigation Taxpayer Productivity Normalized

    Advisory, Insolvency, and Quality Output and Productivity           Advisory Case Direct Hours per Disposition

                           Cycle Time                             Taxpayer Delinquent Account Module – Average Weeks

                           Inventory                                 Taxpayer Delinquent Account Inventory – Modules

                                                                     Percent Potential Overage – Taxpayer Delinquent
                                                                   Account/Combo Taxpayer Delinquency Investigation;
                                                                 Potential Overage – Taxpayer Delinquent Account/Combo
                        Age of Inventory                          Taxpayer Delinquency Investigation; Percent Overage –
                                                                Taxpayer Delinquent Account/Combo Taxpayer Delinquency
                                                                       Investigation; Overage – Taxpayer Delinquent
                                                                   Account/Combo Taxpayer Delinquency Investigation

                         Closure Types                                                Percent Full Pay

                      Enforcement Activity                                                Levies
Source: TIGTA analysis of the CFf FY 2011 operational objectives and the CFf FY 2011 DCR.




                                                                                                                       Page 29
                         Improvements Are Needed to Ensure That Performance
                            Measures Are Balanced and Adequately Assess
                              the Effectiveness of the Collection Program



                                                                                                Appendix X

                                      Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Collection Activity Reports – Automated reports that provide managers timely and reliable raw
data to show results each month by program, case type, location, etc.
Collection Field function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Services Collection Operations – Units of tax examiners that work Balance Due
Notice Program cases.
Congressional Justification – The budget request submitted to the IRS Oversight Board, the
Department of the Treasury, the Office of Management and Budget, and Congress. Revisions
are made to the budget request throughout this process based on approved funding levels from
these external entities prior to the final Congressional Justification.
Data Dictionary – Document that provides information about data such as meaning,
relationships to other data, origin, usage, and format.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Full-Time Equivalent – A measure of labor hours in which one full-time equivalent is equal to
eight hours multiplied by the number of compensable days in a particular fiscal year.
Government Performance and Results Act of 19931 – Law requiring agencies to set
organizational goals pertinent to the agency mission as well as the means to accurately measure
them. Such goals should be cascaded through the organization and linked to the development of
employee elements and standards.
Integrated Financial System – An administrative accounting system used by the IRS.
Internal Revenue Manual – Manual that contains the policies, procedures, instructions,
guidelines, and delegations of authority which direct the operation and administration of the IRS.


1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 30
                         Improvements Are Needed to Ensure That Performance
                            Measures Are Balanced and Adequately Assess
                              the Effectiveness of the Collection Program



IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws and to provide experience, independence, and stability to the IRS so
it may move forward in a cogent, focused direction.
IRS Restructuring and Reform Act of 19982 – The Internal Revenue Service Restructuring and
Reform Act of 1998 became law when the President signed legislation on July 22, 1998. This
new law ushered in dramatic changes in tax law as well as in the structure and functioning of the
IRS. The changes affecting the IRS focus mainly on improving customer service and expanding
taxpayer rights.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Management Discussion and Analysis – Executive report that includes performance
discussion, financial statements, and discussion of financial highlights.
National Quality Review System – A quality review system in which a sample of cases is rated
based on measures such as timeliness, accuracy, and ongoing compliance.
Nonfilers – Individual and business taxpayers that have been identified as liable to file a tax
return but have not filed a tax return by the return due date or extended due date.
Offer in Compromise – An offer in compromise is an agreement between a taxpayer and the
Government that settles a tax liability for payment of less than the full amount owed.
Pyramiding – The accumulation of additional payroll tax liabilities by delinquent in-business
taxpayers.
Raw Data – Data that have not been analyzed.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
Automated Collection System.
Suite – A group of items forming a unit or constituting a collection.
Target Calculation Document – The document the CFf uses to establish target values for the
upcoming fiscal year.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate Taxpayer
Delinquent Account exists for each tax period.




2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 31
      Improvements Are Needed to Ensure That Performance
         Measures Are Balanced and Adequately Assess
           the Effectiveness of the Collection Program



                                                Appendix XI

Management’s Response to the Draft Report




                                                       Page 32
Improvements Are Needed to Ensure That Performance
   Measures Are Balanced and Adequately Assess
     the Effectiveness of the Collection Program




                                                 Page 33
Improvements Are Needed to Ensure That Performance
   Measures Are Balanced and Adequately Assess
     the Effectiveness of the Collection Program




                                                 Page 34
